 FEDERAL ELECTION COMMISSION

  OFFICE OF INSPECTOR GENERAL




            FINAL REPORT

Audit of the Federal Election Commission’s
  Fiscal Year 2006 Financial Statements




               November 2006
          ASSIGNMENT No. OIG-06-02
                           Table of Contents

Transmittal Memorandum


Independent Auditor’s Report……………………………………………………………1

Independent Auditor’s Report on Compliance and Other Matters.………………………3

Independent Auditor’s Report on Internal Control… ……………………………………4
                     FEDERAL ELECTION COMMISSION
                     WASHINGTON, D.C. 20463




Office of Inspector General

MEMORANDUM

TO:            The Commission

FROM:          Inspector General

SUBJECT:       Audit of the Federal Election Commission's Fiscal Year 2006 Financial
               Statements

DATE:          November 15,2006

This letter transmits the final audit report of the Federal Election Commission's (FEC) fiscal year
(FY)2006 financial statements. In accordance with the Accountability of Tax Dollars Act of
2002, the FEC prepared financial statements in accordance with Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements, revised, and subjected
them to audit.

The Chief Financial Officers Act of 1990 (Public Law 101-576, commonly referred to as the
"CFO Act"), as amended, requires the FEC Office of Inspector General (OIG), or an independent
external auditor as determined by the Inspector General, to audit the agency financial statements.
Under a contract monitored by the OIG, Clifton Gunderson LLP (CG-LLP), an independent
certified public accounting firm, performed the audit of the FEC's FY 2006 financial statements.

The FEC's continued commitment to sound financial management resulted in improvement in
several areas. Specifically, improvements in information technology resulted in the removal of
the area as a material weakness; this area is a reportable condition. Further, financial reporting
and payroll have been removed from the list of reportable conditions in FY 2006. In addition,
the FEC implemented a new cost allocation process in fiscal year 2006. The Inspector General
believes the new system will yield W h e r improvements in internal controls and reporting of
FEC program costs in fiscal year 2007 and beyond.
Audit Process
CG-LLP conducted the audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin
No. 06-03, Audit Requirementsfor Federal Financial Statements, as amended. The results of the
financial statement audit are detailed in three reports: opinion on the financial statements; report
on internal control; and report on compliance with laws and regulations.

Opinion on the Financial Statements
The audit included an examination, on a test basis, of evidence supporting the amounts and
disclosures in the financial statements. The audit also included assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall
principal statements' presentation.

CG-LLP audited the balance sheets of the Federal Election Commission as of September 30,
2006 (FY 2006) and 2005 (FY 2005), and the related statements of net cost, changes in net
position, budgetary resources, financing, and custodial activity for the years then ended.

In FY 2006 and 2005, CG-LLP was not able to obtain sufficient competent audit evidence to
support the allocation of program costs reported on the statements of net cost. As a result, CG-
LLP was not able to apply auditing procedures necessary to conduct the audit in accordance with
the standards and the OMB guidance mentioned above. Therefore, CG-LLP issued a qualified
opinion on the statements of net cost.

Except for the effects of such adjustments, if any, to the FY 2006 and FY 2005 statements of net
cost referred to in the preceding 'paragraph, as might have been necessary had CG-LLP been able
to obtain sufficient competent audit evidence and perform adequate audit procedures on the
allocation of the program costs, the CG-LLP opined the financial statements present fairly, in all
material respects, the financial position of the FEC as of September 30,2006 and 2005, and its
net cost, changes in net position, budgetary resources, reconciliation of net cost to budgetary
obligations, financing and custodial activity for the years then ended in conformity with
accounting principles generally accepted in the United States of America.

Report on Internal Control
CG-LLP's planning and performance of the audit included consideration of the FEC's internal
control over financial reporting. The CG-LLP auditors obtained an understanding of the FEC's
internal control; determined whether internal controls had been placed in operation; assessed
control risk; and performed tests of controls in order to determine auditing procedures for the
purpose of expressing an opinion on the fmancial statements. The auditors limited their internal
control testing to those controls necessary to acheve the objectives described in OMB Bulletin
No. 06-03 and consequently CG-LLP did not provide an opinion on internal control.
Internal control as it relates to the financial statements, is a process, affected by agency's
management and other personnel, designed to provide reasonable assurance of the following:
(1) transactions are properly recorded, processed, and summarized to pennit preparation of the
financial statements and assets are safeguarded against loss from unauthorized acquisition, use or
disposition; (2) transactions are executed in accordance with laws governing the use of budget
authority and other laws and regulations that could have a direct and material effect on the
financial statements and other laws and regulations identified by OMB; and (3) transactions and
other data that support reported performance measures are properly recorded, processed, and
summarized to permit the preparation of performance information in accordance with criteria
stated by management.

In performing the testing of internal control necessary to achieve the objectives in OMB Bulletin
No. 06-03, the auditors identified matters relating to significant deficiencies in the design or
operation of FEC's internal control. The testing of internal control identified both reportable
conditions and material weaknesses. The American Institute of Certified Public Accountants
(AICPA) categorizes reportable conditions as matters coming to the auditor's attention relating
to significant deficiencies in the design or operation of the internal control that, in the auditor's
judgment, could adversely affect the agency's ability to record, process, summarize, and report
financial data consistent with the assertions by management in the financial statements. Material
weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements
caused by error or fraud in amounts that would be material in relation to the financial statements
being audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions.

CG-LLP identified material weaknesses in the areas ofi

       Program Cost Allocation
       General Property and Equipment (Property)

CG-LLP identified reportable conditions, not considered to be material weaknesses, which
include the following:

       Information Technology (IT)
       Integrated Financial Management System
       Administrative Fines, Civil Penalties and Miscellaneous Receipts
       Controls Over Procurement and Disbursement Transactions
       Audit Follow-up
Report on Compliance with Laws and Regulations
FEC management is responsible for complying with laws and regulations applicable to the
agency. To obtain reasonable assurance about whether FEC's financial statements are fi-ee of
material misstatements, CG-LLP performed tests of compliance with certain provisions of laws
and regulations, non-compliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain laws and regulations specified in OMB
Bulletin No. 06-03, such as the Anti-Deficiency Act and the Prompt Payment Act.

The results of CG-LLP's tests of compliance with laws and regulations described in the audit
report disclosed no instances of noncompliance with the laws and regulations that are required to
be reported under Government Auditing Standards and OMB Bulletin No. 06-03.

Audit Follow-up
The report on internal control contains numerous recommendations to address weaknesses found
by the auditors. Management was provided a draft copy of the audit report for comment and
CG-LLP reviewed management's comments. Although CG-LLP stands by the report and the
weaknesses detailed, the OIG and CG-LLP intend to work with management through the follow-
up and audit process to ensure the weaknesses are addressed satisfactorily. In accordance with
OMB Circular No. A-50, Audit Followup, revised, the FEC's corrective action plan is to set forth
the specific action planned to implement the recommendations and the schedule for
implementation. The Commission has designated the Chief Financial Officer to be the audit
follow-up official for the annual financial statement audit.

OIG Evaluation of Clifton Gunderson LLP's Audit Performance
In connection with the OIG's contract with CG-LLP, the OIG reviewed CG-LLP's reports and
related documentation and inquired of its representatives. Specifically, we performed the
following: (1) reviewed CG-LLP's approach and planning of the audit; (2) evaluated the
qualifications and independence of the auditors; (3) monitored the work of the auditors
throughout the audit; (4) examined audit documents and audit reports to ensure compliance with
Government Auditing Standards and OMB Bulletin No. 06-03; and (5) performed other
procedures we deemed necessary.

The OIG's review of CG-LLP's work, as differentiated from an audit in accordance with
Government Auditing Standards issued by the Comptroller General of the United States, was not
intended to enable the OIG to express an opinion on the FEC's financial statements; provide
conclusions about the effectiveness of internal control; or reach conclusions on whether FEC's
management substantially complied with laws and regulations related to the audit. CG-LLP is
responsible for the opinion and conclusions reached in the attached reports dated November 15,
2006. The OIG review disclosed no instances where CG-LLP did not comply, in all material
respects, with Government Auditing Standards.
If you should have any questions, please contact my office on (202) 694-1015. We appreciate
the courtesies and cooperation extended to Clifton Gunderson LLP and the OIG staff during the
conduct of the audit.




                                           Lynne A. McFarland
                                           Inspector General


Attachments

Cc:    Staff Director
       General Counsel
       Acting Chief Financial Officer and Deputy Staff Director for Management
       Information Technology Director
       Accounting Officer
                                                                               t


A1
                                   Independent Auditor’s Report


To the Inspector General of the
 Federal Election Commission


We have audited the balance sheets of the Federal Election Commission (the FEC) as of
September 30, 2006 (FY 2006) and 2005 (FY 2005), and the related statements of net cost,
changes in net position, budgetary resources, financing, and custodial activity for the years then
ended (hereinafter collectively referred to as the “financial statements”). These financial
statements are the responsibility of the FEC’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

Except as explained in the following paragraph, we conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 06-03,
Audit Requirements for Federal Financial Statements. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statements’ presentation. We believe our audits provide a reasonable basis
for our opinion.

In FY 2006 and 2005, we were not able to obtain sufficient competent audit evidence to support
the allocation of program costs reported on the statements of net cost. As a result, we were not
able to apply auditing procedures necessary to conduct the audit in accordance with the standards
and the OMB guidance mentioned above.

In our opinion, except for the effects of such adjustments, if any, to the FY 2006 and FY 2005
statements of net cost referred to in the preceding paragraph, as might have been necessary had
we been able to obtain sufficient competent audit evidence and perform adequate audit
procedures on the allocation of the program costs, the financial statements present fairly, in all
material respects, the financial position of the FEC as of September 30, 2006 and 2005, and its
net cost, changes in net position, budgetary resources, reconciliation of net cost to budgetary

Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050


                                                                                 h
fax: 301-931-1710                                1 of 30
www.cliftoncpa.com                   Offices in 15 states and Washington, DC
obligations, financing and custodial activity for the years then ended in conformity with
accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 7, 2006 on our consideration of the FEC’s internal control over financial reporting,
and on our tests of the FEC’s compliance with certain provisions of laws and regulations and
other matters. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are
an integral part of our audit performed in accordance with Government Auditing Standards and
should be considered in assessing the results of our audit.

Our audits were made for the purpose of forming an opinion on the basic financial statements
taken as a whole. The Management Discussion and Analysis, required supplementary
stewardship information, supplementary information, and other accompanying information
containing a wide range of data, some of which is not directly related to the financial statements.
We do not express an opinion on this information. However, we compared this information for
consistency with the financial statements and discussed the methods of measurement and
presentation with the FEC officials. Based on this limited work, we found no material
inconsistencies with the financial statements or nonconformance with OMB guidance.



a1
Calverton, Maryland
November 7, 2006




                                             2 of 30
                                                                                  t

a1
                   Independent Auditor’s Report on Compliance and Other Matters

To the Inspector General of the
 Federal Election Commission

We have audited the financial statements of the Federal Election Commission (FEC) as of and
for the year ended September 30, 2006, and have issued our report thereon dated November
7, 2006. In our report, our opinion was qualified for the effects of adjustments, if any, as might
have been necessary had we been able to obtain sufficient competent audit evidence and perform
adequate audit procedures on the allocation of the program costs in the statement of net cost.
Except as described above, we conducted our audit in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements
for Federal Financial Statements.

The management of FEC is responsible for complying with laws and regulations applicable to
FEC. As part of obtaining reasonable assurance about whether FEC’s financial statements are
free of material misstatements, we performed tests of its compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin No. 06-03. We limited our tests of compliance to these provisions and we did not
test compliance with all laws and regulations applicable to FEC.

The results of our tests of compliance disclosed no instances of noncompliance with the laws and
regulations discussed in the preceding paragraph or other matters that are required to be reported
under Government Auditing Standards and OMB Bulletin No. 06-03.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit, and accordingly, we do not express such an opinion.

We noted certain immaterial instances of noncompliance that we have reported to management
of FEC in a separate letter dated November 7, 2006.

This report is intended solely for the information and use of the management of FEC, FEC
Office of Inspector General, Government Accountability Office, OMB and Congress, and is not
intended to be and should not be used by anyone other than these specified parties.

a1
Calverton, Maryland
November 7, 2006
Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com
                                              Page 3 of 30
                                        Offices in 15 states and Washington, DC      h
                                                                                   t


A1
                             Independent Auditor’s Report on Internal Control


To the Inspector General of the
 Federal Election Commission


We have audited the financial statements of the Federal Election Commission (the FEC) as of
and for the year ended September 30, 2006, and have issued our report dated November 7, 2006.
In our report, our opinion was qualified for the effects of adjustments, if any, as might have been
necessary had we been able to obtain sufficient competent audit evidence and perform adequate
audit procedures on the allocation of the program costs in the statement of net cost. Except as
described above, we conducted our audit in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal
Financial Statements.

In planning and performing our audit, we considered the FEC’s internal control over financial
reporting by obtaining an understanding of the FEC’s internal control; determining whether
internal controls had been placed in operation; assessing control risk; and performing tests of
controls in order to determine our auditing procedures for the purpose of expressing our opinion
on the financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives described in OMB Bulletin No. 06-03. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act (FMFIA) (31 U.S.C. 3512), such as those controls relevant to ensuring efficient
operations. The objective of our audit was not to provide assurance on internal control.
Consequently, we do not provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in our judgment, could adversely affect the agency’s ability
to record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud in amounts that would be

Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050


                                                                                   h
fax: 301-931-1710                                 Page 4 of 30
www.cliftoncpa.com                       Offices in 15 states and Washington, DC
material in relation to the financial statements being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. However, we noted certain matters discussed in the
following paragraphs involving the internal control and its operation that we consider to be
material weaknesses and reportable conditions.

Finally, with respect to internal control related to performance measures reported in the FEC’s
Performance and Accountability Report as of September 30, 2006, we obtained an understanding
of the design of significant internal controls relating to the existence and completeness
assertions, as required by OMB Bulletin No. 06-03. Our procedures were not designed to
provide assurance on internal control over reported performance measures, and, accordingly, we
do not provide an opinion on such controls.

                            ********************************

MATERIAL WEAKNESSES

I.     Program Cost Allocation (Modified Repeat Finding)

       The FEC has made significant progress in the area of cost accounting. In the last half of
       FY 2006, the FEC implemented a new cost accounting system called the Time Reporting
       System (TRS). The TRS automates and standardizes the cost accumulation and the
       allocation of program costs. Training on the new cost system was conducted, and a
       memorandum from the Chief Financial Officer was issued to ensure that employees
       understand and know the importance of and how to use the new system. Also, towards
       the end of the fiscal year, the FEC has identified its responsibility segments and the need
       for re-alignment of its organizational structure for performance costing, has identified the
       outputs of its responsibility segments and is in the process of revising its cost accounting
       policies and procedures.

       The FEC program costs are driven by hours charged by each employee to activity codes
       that roll up to the specific FEC programs. The results of our tests disclosed that
       completeness, timeliness and discrepancies between the source data and the system data
       are the key deficiencies identified in the new cost system. As a result, we were not able
       to obtain reasonable assurance on the costs reported for each program on the statement of
       net cost. We understand that the FEC is still in the process of fine tuning its processes
       and controls to ensure that data input into the system are complete, timely, and are
       supported by an audit trail that agrees with the source data coming from the employees.

       Other system deficiencies and exceptions noted, which may or may not have been
       corrected during the audit process are as follows:

       •   The new cost system password settings do not follow the FEC’s password standards.
           The account lockout threshold is set at seven invalid attempts instead of five invalid
           attempts.



                                          Page 5 of 30
•   The FEC does not have a formal process for ensuring that hours are entered in the
    system timely and correctly, that is, to the correct activity codes that will correspond
    to the correct program codes. Further, a review process is not implemented
    Commission-wide.
•   The cost allocation percentages used in preparing the initial statement of net costs
    were incorrect because the FEC did not follow the reallocation process outlined in the
    system conceptual design document. Specifically, hours which should have been
    reallocated to the division only were reallocated Commission-wide.
•   The system default allocation for the Information Division improperly allocated hours
    to the Compliance program when the hours should have been allocated to the Public
    Financing program.

Recommendations:

1. Revise the account lockout threshold in TRS to five invalid attempts.

2. Establish written policies and procedures to ensure that employees enter their time in
   the cost system timely and properly and the results are supported by source data
   which is reviewed and approved by management.

3. Ensure correct and consistent application of the cost allocation process in accordance
   with the cost system user manual and conceptual design document.

4. Ensure errors in TRS causing the system to allocate hours for the Information
   Division to the wrong program are resolved.

Management Response

Overall, the FEC agrees with this finding. Management will change the lockout threshold
in TRS to five invalid attempts (#1 above). The FEC will also strengthen written policies
and procedures, including management approval to ensure data is entered correctly in
TRS (#2). Guidance will also be issued to ensure operators understand the sequence of
steps necessary to perform the allocations correctly (#3). Further, the FEC will consider
building controls into the software to prevent errors in performing the steps. If cost
effective, the FEC will implement the changes in FY 2007. The errors in TRS related to
the allocation of errors for the Information Division were corrected prior to the
conclusion of the audit (#4).

The audit finding acknowledges considerable progress in the area of cost accounting in
FY 2006. However, the FEC is disappointed that CG did not raise issues with the source
data until late in the audit. If the issues had been raised earlier, steps would have been
taken to correct the data.




                                   Page 6 of 30
      Auditor’s Response

      The FEC delayed full implementation of the new cost allocation process until the fourth
      quarter of 2006. As a result, the auditors and management came to an understanding that
      the substantive testing would be performed at year end, when the program costs are
      reported on the statement of net cost using the new cost system, rather than testing at
      interim (ending June 2006). The auditors believe concerns regarding the cost allocation
      process were promptly communicated to management once weaknesses were discovered.

II.   General Property and Equipment (Property) (Modified Repeat Finding)

      As noted in the prior year, the FEC’s accounting for property involves a time-consuming
      effort that increases the risk of errors due to the FEC’s process of expensing its property
      at the time of acquisition and preparing a journal voucher to reclassify the expense to an
      asset account for reporting purposes.

      Our audit disclosed deficiencies, errors or omissions that question the effectiveness of the
      FEC’s internal control on property. The weaknesses identified below collectively
      resulted in a material weakness in the FEC’s general property and equipment.

      •   Management’s periodic property reconciliation process and review of related
          subsidiary schedules and journal vouchers did not uncover errors during the year.
          These errors were uncovered during the audit process. Specifically, the errors
          included duplicate entries to record first quarter additions to leasehold improvements
          and adjustments needed to accrue costs.
      •   Additionally, journal entries to transfer property amounts from the expense to asset
          accounts were posted to the wrong United States Standard General Ledger (USSGL)
          account. The posting errors were detected during the interim testing phase of the
          audit process. The posting errors continued into the fourth quarter of the fiscal year
          (FY) and were again detected as part of the audit process. Journal entries to correct
          the aforementioned errors were posted to the general ledger more than once or were
          done incorrectly.
      •   Although the number of the FEC’s capitalized assets reported in the financial
          statements is not many, most of these assets are bulk purchases comprised of many
          individual items which are individually entered into the property system for
          accountability purposes. The information contained in the property system is not
          always complete. We found that some items in the property system did not have the
          bar code identification, serial number and location of the asset.
      •   Although we were informed a physical inventory of capitalized assets had been
          performed, the FEC did not provide: the instructions used to complete the annual
          inventory of assets; complete results; and reconciliation of the physical inventory to
          the property system and the general ledger balance.
      •   The FEC has not established a standard process, mechanism or policy to ensure that
          program offices notify the Finance Office of the acquisition or disposition of property
          assets to ensure that the accounting impact of the transaction is recorded timely and
          properly.


                                         Page 7 of 30
•   Management’s monthly analysis of financial activities did not show an analysis of
    property.

Recommendations:

5. Improve analytical and quality control review of subsidiary schedules, journal
   vouchers and property reconciliation to ensure material errors and differences are
   identified and resolved timely.

6. Use correct USSGL accounts.

7. Develop a mechanism for reconciling individual property items in the property
   system to the bulk purchases recorded in the general ledger to ensure completeness of
   the property system records. Also, ensure that the property management system has
   complete information, such as bar code identification, serial number and location of
   the asset.

8. Clearly document physical inventory procedures, results of the physical inventory,
   and the reconciliation performed. Maintain the documentation for audit trail and
   management review purposes.

9. Establish a standard process, mechanism or policy to ensure program offices notify
   the Finance Office of the acquisition and disposition of property assets.

10. Perform a monthly analysis of property as part of the monthly analysis of financial
    activities.

Management Response

The FEC agrees with findings and recommendations but not its classification as a
Material Weakness. In FY 2007, the FEC will make an effort to review spreadsheets (#1
above) and journals (#2) more thoroughly to catch errors. The FEC will update its
internal directive on property for the custodians to prescribe forms to assist with the
reconciling of detailed records to the property system (#3), taking of physical inventory
(#4) and the acquisition and disposal of assets (#5). Also, management will consider
adding property reports to the monthly analysis prepared by the Accounting Officer (#6).

Auditor’s Response

We have carefully reviewed the FEC management response, however we have not
changed our conclusion that the general property and equipment weaknesses evaluated
collectively is a material weakness.




                                   Page 8 of 30
REPORTABLE CONDITIONS

III.   Information Technology (IT)

       A. Entity-Wide Security Program

          The Government Accountability Office (GAO) reported in July 2005 that the
          underlying cause for information security weaknesses is that agencies have not yet
          fully implemented entity-wide information security programs. An entity-wide
          security program provides a framework and continuing cycle of activity for managing
          risk, developing security policies, assigning responsibilities, and monitoring the
          adequacy of the entity’s computer-related controls. Without a well-designed
          program, security controls may be inadequate; responsibilities may be unclear,
          misunderstood, and improperly implemented; and controls may be inconsistently
          applied. Such conditions may lead to insufficient protection of sensitive or critical
          resources and disproportionately high expenditures for controls over low-risk
          resources. (U.S. Government Accountability Office, Weaknesses Persist at Federal
          Agencies Despite Progress Made in Implementing Related Statutory Requirements,
          GAO-05-552 [Washington, D.C. July 2005]).

          Improvement is needed in the FEC’s enterprise-wide security management program
          as indicated in the prior year audit. During our FY 2006 review of the FEC's existing
          security program, we noted that the FEC made the following progress:

          •   The FEC’s management solicited bids for risk assessments. The risk assessment
              and business impact analysis are key components in the development of security
              plans and disaster recovery plans. In FY 2006, the FEC’s management
              determined that it did not have the funds available to conduct risk assessments or
              a business impact analysis. The FEC’s management is currently allocating funds
              in its FY 2007 budget to complete these tasks.
          •   The FEC’s management revised its Security Review Policy. The revised policy
              calls on management to perform annual external penetration tests, disaster
              recovery tests, incidence response tests, network vulnerability studies and a
              review of access control procedures. Additionally, the FEC performed a review
              of its firewall rule-set to identify and modify/delete obsolete rules.

          Our review of the FEC's existing security program revealed continuing weaknesses in
          controls that expose the FEC's significant financial management systems and data to
          unauthorized access and/or modification. Weaknesses included the following:

          •   The FEC has not completed the documentation, approval and implementation of
              its entity-wide security program plan. (Repeat Finding)
          •   The FEC has not fully implemented its framework of policies and standards to
              mitigate risks associated with the management of its information resources.
              Although the FEC has implemented the majority of its information security
              policies, it has not fully implemented all of the related policies and standards.


                                         Page 9 of 30
    The FEC has not finalized and implemented an information classification policy
    or its certification and accreditation policy. Management is currently not ready to
    implement these policies and is in the process of reviewing and revising them.
    (Repeat Finding)
•   Risk assessments, as part of the FEC’s overall strategy to mitigate risks associated
    with its information technology environment, have not been conducted for more
    than three years. Therefore, resource classifications in the FEC’s completed
    security plans are not based on risk assessments. The FEC informed us that it is
    currently waiting for the availability of funds to complete a risk assessment.
    (Repeat Finding)
•   The FEC has created security plans for all of its major applications and mission
    critical general support systems. However, the security plans are not viable
    because they are not based on an assessment of the risks to the FEC’s systems.
    Accordingly, these major applications and mission critical general support
    systems have not been certified and accredited to ensure that they are operating
    according to the FEC’s security requirements. (Modified Repeat Finding)
•   There are weaknesses in the FEC’s program for the continuous monitoring and
    evaluation of the computer security policy and control effectiveness. The FEC
    has implemented its security review policy and performed all of the review steps
    outlined in the policy. However, a key part of a continuous monitoring program
    is a process for documenting and monitoring the status of corrective actions.
    Although the FEC has a corrective action plan for the CFO audit, the corrective
    action plan is not being applied to all reviews of security controls. (Modified
    Repeat Finding)
•   The FEC needs to strengthen its process of documenting corrective actions. A
    corrective action plan should identify the task to be completed in addition to
    identifying the resources required to accomplish the elements of the plan, any
    milestones in meeting the tasks, and scheduled completion dates for the
    milestones. The FEC’s corrective action plans identify the issue that needs to be
    addressed, but does not always include the persons assigned to the task, estimated
    completion dates, and steps or milestones necessary to complete the task.
    (Modified Repeat Finding)

Recommendations:

11. Complete the documentation, approval and implementation of an entity-wide
    security program plan.

Management Response

In November 1997, the FEC established Directive 58, outlining the Commission
policy on the control of commission software, and the use of agency computers. This
directive formed the basis of the agency’s computer security program. This directive
has been enhanced and expanded incorporating the latest guidance and best
practices provided by NIST in detail, and issued in policy 58A. The updating of
Directive 58 was initiated in December 2001 with the establishment of an agency


                               Page 10 of 30
Information Systems Security Officer. This was followed with the establishment of an
interim Information System Security Program Policy 58A dated April 2004. This
interim policy became final in September 2004 as approved by the agency’s Chief
Information Officer (CIO). The implementation of the FEC entity wide security
program plan occurred on October 2004, when the FEC issued a memo informing all
employees/contractors that “Information System Security Program Policy” Policy
Number: 58A was approved and should be adhered to by all employees/contractors.

12. Finalize and implement the FEC’s information classification policy and
    certification and accreditation policy along with any accompanying standards.

Management Response

The FEC reserves the right to review, rescind, and modify any existing and/or
proposed policy within its IT security program policy. The Information Classification
and Certification and Accreditation policies were rescinded from the implementation
process to study their suitability and feasibility within the FEC information
technology environment. In addition, both policies are heavily dependent upon the
completion of a third party risk assessment prior to implementation. In absence of
these assessments a management decision was made to rescind these policies until
such time as to their successful implementation can be reasonably assured.

13. Perform risk assessments, as part of the FEC’s overall strategy to mitigate risks
    associated with its information technology environment.

Management Response

As a vital component of the Information Systems Security Program Policy (ISSPP)
58A, the FEC has developed and approved sub-policy 58-2.1: Risk Management
policy. This policy establishes a framework of procedures and standards to mitigate
risks associated with the management of information resources. 58-2.1 Risk
Management Policy states that external risk assessments should be performed within
the recommended 3 year period; however, current budgetary restraints have
prevented this.

The FEC management has completed the Statement of Work (SOW) and the FEC
management has received proposals from three vendors and is currently reviewing
the proposals. In addition, the FEC has allocated funds in fiscal 2007 (pending no
further budgetary constraints) to partially accomplish this goal. Until greater
resources are allocated toward this project, the FEC shall continue to conduct its
own internal reviews such as those specified in its Security Review Policy.

14. Incorporate the results of the risk assessments into the FEC’s security plans.

15. Classify information resources in accordance with the risk assessments.




                               Page 11 of 30
   Management Response

   The FEC has created security plans, which document the security safeguards for its
   major applications and general support system. As stated in previous responses the
   FEC was unable to conduct third-party risk assessments due to budgetary restraints,
   however in the absence of such assessments the Commission has leveraged the
   considerable knowledge, skills, and experience of the Information Technology
   Division senior management to create security plans based upon appropriate levels
   of risk

   16. Utilize corrective action plans for all reviews of security controls whether
       performed internally or by a third-party.

   17. Ensure that corrective action plans identify the task to be completed in addition to
       identifying the resources required to accomplish the elements of the plan, any
       milestones in meeting the tasks, and scheduled completion dates for the
       milestones.

   Management Response

   The FEC has instituted a comprehensive process for the continuous monitoring and
   evaluation of the computer security policy and control effectiveness that it believes is
   sufficient for an effective review and appraisal of its policy and procedures.
   However, in an effort to enhance the financial auditors understanding of the FEC
   Information Technology Division’s internal work processes, the FEC will review and
   consider a revised format.

   18. Certify and accredit all major applications and mission critical general support
       systems.

   Management Response

   Same response as in recommendations 14 and 15.

B. Contingency Plan

   Losing the capability to process and protect information maintained on the FEC’s
   computer systems can significantly impact the FEC’s ability to accomplish its
   mission to serve the public. The purpose of service continuity controls is to ensure
   that, when unexpected events occur, critical operations continue without interruption
   or critical operations are promptly resumed.

   To achieve this objective, the FEC should have procedures in place to protect
   information resources and minimize the risk of unplanned interruptions and a plan to
   recover critical operations should interruptions occur. These plans should consider
   activities performed at the FEC’s general support facilities (e.g. the FEC’s local area



                                  Page 12 of 30
network, wide area network, and telecommunications facilities), as well as the
activities performed by users of specific applications. To determine whether the
disaster recovery plans will work as intended, the FEC should establish and
periodically test the capability to perform its functions in disaster simulation
exercises.

Our review of the service continuity controls identified deficiencies that could affect
the FEC’s ability to respond to a disruption in business operations as a result of a
disaster or other long-term emergency. The deficiencies were as follows:

•   The FEC has not performed a Business Impact Analysis (BIA) to formally
    identify and prioritize all critical data and operations on its networks and the
    resources needed to recover them if there is a major interruption or disaster. In
    addition, we could not determine whether the FEC had established emergency
    processing priorities that will help manage disaster situations more effectively for
    the network. The FEC also has not included business owners in the discussion to
    determine how much backup data is needed on-hand to minimize the impact of a
    disaster. The FEC is currently waiting for the budgetary funds to complete a BIA.
    (Repeat Finding)
•   The FEC has not established an alternate processing site for its operations in the
    event of a disaster, including its general ledger system. Additionally, the FEC’s
    disclosure database is replicated at an off-site location as a web-enabled read-only
    database the public can access. In the event that data cannot be updated at the
    FEC and then replicated to the off-site location, there is no operational
    mechanism to update the disclosure database at the off-site location. The FEC has
    developed a cost analysis of establishing an alternate site and is currently pursuing
    interagency agreements to address this issue. (Repeat Finding)
•   The FEC has not developed and documented a comprehensive contingency plan
    of its data centers, networks and telecommunication facilities. The plan does not
    include steps for recovering all of the FEC’s major applications and mission
    critical general support systems. Additionally, the comprehensive contingency
    plan does not prioritize resources or set a timeframe for recovery. However, the
    FEC has updated the disaster recovery plan to include both a power failure
    scenario and a data center air-condition failure scenario. (Repeat Finding)
•   The FEC has not developed a Continuity of Operations Plan (COOP) to support
    the continuation of its core mission in the event of a disaster that renders the
    FEC’s facilities unusable. (Repeat Finding)

Recommendations:

19. Perform a BIA to formally identify and prioritize all critical data and operations
    on the FEC’s networks and the resources needed to recover them if there is a
    major interruption or disaster.




                               Page 13 of 30
   Management Response

   The FEC agrees that a formal business impact analysis would be useful and it is
   currently awaiting funds to complete the project. In lieu of a formal BIA the FEC has
   leveraged its own internal expertise to identify and prioritize its critical data and
   operations on the FEC’s networks and the resources needed to recover them if there
   is a major interruption or disaster.

   20. Ensure that emergency processing priorities are established to assist in managing
       disaster situations more effectively for the network and include business owners
       in the discussion to determine how much backup data is needed on-hand to
       minimize the impact of a disaster.

   Management Response

   The FEC has developed emergency processing priorities. These emergency process
   priorities have been outlined in the FEC’s Disaster Recovery Plan.

   21. Establish an alternative processing site for the FEC’s operations in the event of a
       disaster and ensure that an operational mechanism exists to update the disclosure
       database in the event that the FEC’s database is unavailable to replicate the
       disclosure database resident at the off-site location.

   Management Response

   The FEC believes that the cost to establish an alternative processing site would be
   cost prohibitive and would not be cost effective. Therefore, an alternative processing
   site is not part of the FEC budget request.

   22. Develop and document a comprehensive COOP of the FEC’s data centers,
       networks, and telecommunication facilities.

   23. Develop a COOP to support the continuation of the FEC’s core mission in the
       event of a disaster that renders the FEC’s facilities unusable.

   Management Response

   The FEC agrees that a Continuity of Operations Plan would be useful and it is
   currently awaiting funds to complete the project.

C. Controls to Protect Information

   For a computerized organization like the FEC, achieving an adequate level of
   information protection is highly dependent upon maintaining consistently effective
   access controls and system software controls. Access controls limit and monitor
   access to computer resources (i.e., data files, application programs, and computer-
   related facilities and equipment) to the extent necessary to provide reasonable


                                  Page 14 of 30
assurance that these resources are protected against waste, loss, unauthorized
modification, disclosure, or misappropriation. Access controls include logical
controls, such as security software programs designed to prevent or detect
unauthorized access to sensitive files. Similarly, system software controls limit and
monitor access to powerful programs and sensitive files that control computer
processing and secure the application and data supported by the system.

Our limited testing of internal controls identified weaknesses related to the
information protection in the FEC’s information systems environment. Impacted
areas included the local area and wide area networks as well as its midrange computer
systems (e.g. servers). These vulnerabilities expose the FEC and its computer
systems to risks of external and internal intrusion, and subject sensitive information
related to its major applications to potential unauthorized access, modification, and/or
disclosure.

Current weaknesses in access controls include the following:

•   The FEC is not actively monitoring the use of budgetary overrides in the general
    ledger (GL) application. The FEC is currently finalizing a process where the
    chief financial officer will review the use of overrides on a monthly basis and
    initial the override log to show that overrides have been reviewed. (Repeat
    Finding)
•   The PeopleSoft application does not have the built in functionality to enforce the
    FEC’s password policy. Additionally, the mitigating controls implemented by the
    FEC do not address the following weaknesses: (Modified Repeat Finding)

    o PeopleSoft does not have an account lockout policy.
    o PeopleSoft does not prevent users from using previous passwords.
    o PeopleSoft does not have the ability to enforce strong password requirements.

•   Oracle audit trails were not maintained on the FEC’s servers. The FEC maintains
    audit trails at the application level, but not the database level because of the
    potential impact to production. However, we have not been provided any
    documentation to show that the FEC has conducted a test to determine what the
    impact on processing would be.
•   The FEC’s procedure for granting access to its networks, systems, and physical
    facility through access authorization e-mails needs improvement. Additionally,
    the FEC’s procedure for reviewing and recertifying user access rights needs
    improvement. We noted the following weaknesses in the access reauthorization
    process, in addition to weaknesses in the access authorization e-mails used to
    document and grant access rights and privileges: (Modified Repeat Finding)

    o Seven out of 30 individuals reviewed did not have e-mails to document their
      network access.
    o Seven out of 30 individuals have network access rights that did not match
      their access requests.


                               Page 15 of 30
   o Thirteen of 30 individuals’ network access e-mails did not identify the
     network groupings that the user should have access to.
   o Four dial-in users did not have access documentation on file and were not on
     the list of users with laptops.
   o Two VPN users were not on the list of users with laptops. Additionally, these
     two users are employees of the FEC that should have the FEC’s laptops.
   o All 17 of the dial-in users did not have their access periodically recertified.
   o One separated employee still had a dial-in account.
   o Data center access documentation was not available for 19 users.
     Additionally, there was no evidence that data center access was periodically
     recertified.
   o Access documentation was not maintained for system administrators and
     database administrators. The FEC’s current policy is to grant employees
     access based on their positions. According to the FEC, only employees hired
     to perform administrative functions are granted administrative access.
     However, “best practices” state that access forms should be maintained.
   o There were 21 individuals with access to the data center that did not have a
     justifiable need (based on job functionality) to have data center access.

Recommendations:

24. Finalize and implement the FEC’s process to manually review logs of users using
    budgetary overrides where the reviewer is an individual who does not have access
    to utilize the overrides.

Management Response

Budget overrides are rarely used by the FEC. They are only used when transactions
cannot be processed any other way. In most cases budget errors result in funds being
moved from another object class. This eliminates the error rather than overrides the
control. Effective with the August reports, the CFO began signing off on a control
report that lists all budget overrides used. The Accounting Officer and Budget Officer
run reports independently for the CFO to approve. The FEC agrees this is an
important safeguard. No budgets have been exceeded without management approval.

25. Develop mitigating controls to ensure that PeopleSoft passwords are in agreement
    with the FEC’s policy or ensure that when PeopleSoft processing is outsourced,
    the third-party maintains password controls that comply with the FEC’s password
    policies.

Management Response

The current version of PeopleSoft does not contain any mechanisms for the
automated enforcement of passwords. The FEC is aware of this vulnerability and the
risk associated with this version of PeopleSoft’s lack of automated authentication
enforcement. The FEC has implemented a series of compensating controls consisting



                              Page 16 of 30
   of additional user awareness training, policy issuance, and manual enforcement to
   mitigate associated risk. The FEC understands and accepts the residual risk until an
   automated solution can be found. In addition, the FEC plans to ensure that
   automated password enforcement is either native or a third-party maintains password
   controls that comply with the FEC’s password policy when PeopleSoft Processing is
   outsourced.

   26. Use access request forms that identify the user’s access level to document user
       access rights to all the FEC’s systems. Additionally, the FEC should periodically
       review the appropriateness of access granted and recertify user access rights.

   Management Response

   The FEC utilizes either an email from management or the new hire report from
   Human Resources as user access request forms. In addition, the FEC periodically
   revalidates all network access for appropriateness as dictated by 58-2.11 Security
   Review Policy

   27. Investigate to determine a baseline level of auditing that can be performed without
       causing a detrimental impact to the performance of the Oracle databases and the
       applications that they support.

   Management Response

   In the normal course of business, performance indicators are monitored to ensure
   application stability. This constant monitoring provided the FEC with the
   information needed to determine that the enabling of Oracle audit trails would prove
   an unnecessary hindrance to system performance. The FEC recognizes the risk
   associated with not enabling Oracle audit trails and has initiated audit trails at the
   application level and limited database access to a select number of persons as two
   compensating controls. The FEC understands and accepts any residual risk left from
   this process.

   28. Periodically review data center access and remove unnecessary access rights.

   Management Response

   Although the FEC maintains an accurate list of those persons requiring access to its
   Datacenter the requirement for maintaining supporting documentation is a recent
   one. The FEC is currently evaluating the necessity of adding the Datacenter access
   list to its 58-2.11 Security Review Policy to ensure that periodic recertification will
   occur.

D. Software Development and Change Controls

   Establishing controls over the modification of application software programs helps to
   ensure that only authorized programs and authorized modifications are implemented.


                                 Page 17 of 30
This is accomplished by instituting policies, procedures, and techniques that help
make sure all programs and program modifications are properly authorized, tested,
and approved, and that access to and distribution of programs is carefully controlled.
Without proper controls, there is a risk that security features could be inadvertently or
deliberately omitted or "turned off" or that processing irregularities or malicious code
could be introduced.

Our review of the software development and change controls identified deficiencies
that could affect the FEC’s ability to ensure that only authorized programs and
authorized modifications are implemented. The deficiencies were as follows:

•   The FEC has not implemented a formal process for identifying, documenting,
    testing and installing security patches and updates to its Oracle, UNIX and
    Windows environments.
•   The FEC does not maintain documentation evidencing that Oracle and Solaris
    patches are tested and approved before being installed into production.
•   The PeopleSoft application is currently supported by an Oracle 8 database that is
    no longer supported by the vendor.

Recommendations:

29. Implement formal policies and procedures for managing system software changes.

30. Maintain documentation to support the testing and approval of system software
    changes.

Management Response

The FEC has developed and implemented a comprehensive set of policies and
procedures for managing system changes.           These include 58-2.3 Change
Management Policy and the FEC Change Management Standard. In addition, based
upon early feedback from the financial auditors the FEC instituted the FEC Patch
Management Standard on 10/04/06.

31. Complete the migration of financial processing to a third-party service provider
    and verify that the service provider is utilizing vendor supported system software
    versions.

Management Response

Due to legacy issues associated with some of the FEC applications the current
version of Oracle 8 is required. Although the vendor no longer provides patches for
this version of Oracle it does provide limited support, which includes assisting
customers with work-arounds to issues that may arise. In addition, the FEC has built
a considerable amount of experience and internal expertise over the years that this
product has been in its inventory.


                               Page 18 of 30
         The FEC recognizes the risk associated with maintaining a product with limited
         support. Accordingly, the FEC is relying upon its considerable internal expertise,
         restricted access to only a few persons and Oracle’s limited support as compensating
         factors until the migration of financial processing to a third-party service provider is
         implemented. The FEC understands and accepts any residual risk left from this
         situation. Additionally, the FEC plans to verify that any third party service provider
         has adequate support during the migration of its financial processing.

IV.   Integrated Financial Management System (Repeat Finding)

      The FEC does not have an integrated financial management system. Significant financial
      management systems, such as the cost system, accounts receivable system and the
      property and equipment system do not interface with the general ledger system.

      A single, integrated financial management system is a unified set of financial systems
      linked together electronically in an efficient and effective manner to provide agency-wide
      financial system support. Integration means that the user is able to have one view into
      systems such that, at whatever level the individual is using the system, he or she can
      obtain necessary information efficiently and effectively through electronic means. It does
      not necessarily mean having only one software application covering all financial
      management system needs within an agency. Interfaces are acceptable as long as the
      supporting details are maintained and accessible to managers. Interface linkages must be
      electronic unless the number of transactions is so small that it is not cost beneficial to
      automate the interface. Easy reconciliation between systems, where interface linkage is
      appropriate, must be maintained to ensure data accuracy.

      Recommendation:

      32. Evaluate the extent of systems integration needed for existing systems when
          considering the outsourcing of the FEC’s accounting services to a shared service
          provider.

      Management Response

      The FEC agrees with this finding and recommendation. The FEC is actively pursuing
      securing the services of a financial line of business provider in FY 2007 or early FY
      2008.

V.    Administrative Fines, Civil Penalties and Miscellaneous Receipts (Modified Repeat
      Finding)

      The program offices serve as the primary source of information related to accounts
      receivable transactions which should be recorded in the general ledger by the Finance
      Office. Accounting events requiring recordation in the general ledger include assessment
      of administrative fines and civil penalties, determination of an uncollectible debt and
      payment by a respondent. On a monthly basis, civil penalty and administrative fine



                                        Page 19 of 30
      activities are initially reported to the Finance Office by the program offices in a memo.
      These memos are used by the Finance Office to update the accounts receivable subsidiary
      schedule that serves as the basis for accounts receivable transactions recorded in the
      general ledger. The information submitted by the program offices is augmented by more
      detailed information obtained from the FEC website and collection reports prepared by
      the Finance Office. The schedules are reconciled to the program offices’ records and
      submitted to management for review and approval.

      Our audit found the aforementioned reconciliation and management review were
      ineffective in detecting: mathematical or classification errors; and accounts receivable
      balances recorded for the wrong amount.

      Further, the methodology used to determine allowance for doubtful accounts is not
      formally documented or fully disclosed in the financial statements.

      Recommendations:

      33. Implement policies and procedures for reviewing the accounts receivable schedules
          for reasonableness and accuracy prior to recording related account transactions in the
          general ledger.

      34. Formalize policies and procedures for performing accounts receivable reconciliations.
          While developing these procedures, the FEC should consider establishing a timeline
          for when the reconciliations should be finalized by the program offices and forwarded
          to the Finance Office.

      35. Document all the methodologies applied in calculating allowance for uncollectible
          accounts. Periodically review the methodologies against actual procedures performed
          and revise them as necessary.

      Management Response

      The FEC agrees with these findings and recommendations 33, 34, and 35. Significant
      progress was made in the receivables area in FY 2006. The findings in this area were
      mainly the result of errors in cells of the new spreadsheets and have been corrected. In
      FY 2007, we intend to improve further by: a) issuing a directive for receivables
      management; b) review the spreadsheets more thoroughly; c) working with Treasury to
      ensure better reports and; d) improve documentation of the allowance for uncollectible
      accounts.

VI.   Controls Over Procurement and Disbursement Transactions

      The weaknesses identified below collectively resulted in a reportable condition in the
      FEC’s procurement processes.

      •   Several procurement documents meeting the criteria for approval by the
          Commissioners were not submitted to the Commission for approval or the


                                        Page 20 of 30
    Commissioners’ approval was not clearly documented or provided to us for review.
    Other procurement transactions were not approved by all the individuals in the
    approval chain or were signed by the same individual for more than one position in
    the approval chain.
•   For one of 45 sample items the total obligations and disbursements exceeded the
    contract amount. Although the disbursements were determined to be legitimate, the
    contract was not modified for the increase in obligation.
•   There were several incidents where documents intended to support approval of
    procurement and disbursement actions were not properly submitted for approval,
    supported or maintained by the agency.
•   Accounts payable reconciliations were not always timely prepared by the FEC’s
    personnel and approved by management.

GAO Standards for Internal Control in the Federal Government states that transactions
and other significant events should be authorized and executed by persons acting within
the scope of their authority. This is a principal means of assuring that only valid
transactions to exchange, transfer, use or commit resources and other events are initiated
or entered into. Evidence of approval should be clearly documented and readily available
for examination. Further, key duties and responsibilities need to be divided or segregated
among different people to reduce the risk of error or fraud.

Recommendations:

36. Issue formal guidance for performing corrective action when negative obligation
    balances occur. Procedures should describe the conditions when corrective action is
    needed, corrective actions to perform and the individuals responsible for resolving the
    error. The timely response and clear communication on corrective action should also
    be included in the procedures.

37. Ensure documentation related to procurement and disbursement actions are properly
    approved and supported. Procurement policies and procedures should be enhanced to
    document, completely and clearly, operating procedures for the procurement cycle
    and should include procedures for documenting justification when exceptions are
    made to established procedures.

38. Ensure reconciliations are consistently performed, reviewed and approved in a timely
    manner.

Management Response

The FEC agrees with these findings and recommendations 36, 37, and 38. The FEC will
issue additional internal guidance on how to handle negative obligations (#36). The
Administrative Officer issued updated guidance to clarify signatures needed on
procurement documents in early FY 2007. The FEC Procurement Directive will be
updated in FY 2007 to reflect this change (#37). The FEC will address the timeliness of
reconciliations with appropriate staff members (#38).


                                  Page 21 of 30
VII.   Audit Follow-up

       Establishing a comprehensive system for audit follow-up helps to ensure prompt and
       proper implementation of corrective action on identified internal control deficiencies.
       Accordingly, OMB Circular A-50, Audit Follow-up, requires an agency to establish an
       audit follow-up system which includes, among other provisions: 1) resolution and
       corrective action on audit recommendations within six months following final report
       issuance; 2) specific and written plans for corrective action with specified action dates; 3)
       a complete and accurate record of the status of audit reports or recommendations through
       the entire process of resolution and corrective action and 4) semi-annual report to the
       agency head on the status of audit report recommendations.

       The FEC was not able to provide the May 2006 report detailing the status of audit
       recommendation submitted to the Commissioners as required by the FEC Directive 50
       Audit Follow-up, revised April 2006. During the audit period, we recognized that the
       Audit Follow-up Official for the financial audit was in the process of establishing a
       follow-up system. However, we identified deficiencies in the follow-up system that
       could affect the FEC’s ability to ensure prompt and proper resolution of audit findings
       and recommendations. The deficiencies were as follows:

       •   Sections of the audit follow-up matrix for the financial statement audit are maintained
           in various locations within the agency. A separate matrix for Information
           Technology and non-Information Technology related recommendations are
           maintained by the Chief Information Officer and Accounting Officer, respectively.
           The financial audit Audit Follow-up Official does not maintain a consolidated matrix
           nor does he have ready access to the matrix for Information Technology related audit
           findings. During the FY 2006 financial statement audit, significant effort on the part
           of the FEC personnel and multiple requests from the auditors was needed to
           determine the status of FY 2005 financial statement audit recommendations. The
           FEC’s procedures for the corrective action matrix compromises the financial
           statement Audit Follow-up Official’s ability to monitor the remediation process for
           audit findings and implement additional corrective action, where necessary.
       •   The matrix for the FY 2005 financial statement audit findings was not complete. It
           did not include the corrective action plan, or targeted and actual completion dates
           and/or responsible party for several recommendations.
       •   The FEC has not formalized a methodology or timetable for updating the matrix with
           the current status of corrective action plans and/or revised targeted and/or completion
           dates. During the FY 2006 audit, we noted the current status of the corrective action
           plan or target date of completion was not always updated in the matrices provided to
           the auditors. As such, management’s assertion regarding the status of audit
           recommendations was not always correct.

       Recommendation:

       39. Formalize the remediation process related to audit findings and recommendations that
           is consistent with OMB Circular A-50 guidelines.


                                          Page 22 of 30
       Management Response

       The FEC agrees with the finding and the recommendation. In FY 2006, the FEC
       developed a detailed matrix for ITD and accounting findings which will be monitored
       closely by the CFO. The first follow-up report is expected to be sent to the Commission
       through the Staff Director in November 2006.

OTHER MATTER

OMB Bulletin No. 06-03 requires that the auditor’s report on internal control “identify those
material weaknesses disclosed by the audit that were not reported in the reporting entity’s
Federal Managers’ Financial Integrity Act (FMFIA) report.” The FEC’s schedule of material
weaknesses and non-conformances included in the PAR did not identify the material weaknesses
noted in the FY 2006 Independent Auditor’s Report on Internal Control. We do not believe,
however, that failure to report these material weaknesses in FMFIA constitutes a separate
reportable condition or a material weakness because different criteria are used by management
and the auditors in determining material weaknesses.

STATUS OF PRIOR YEAR CONDITIONS

As required by Government Auditing Standards and OMB Bulletin No. 06-03, we have reviewed
the status of the FEC’s corrective actions with respect to the findings and recommendations from
the previous year’s report on internal controls. We have attached Appendix A to our report that
presents the status of prior year findings and recommendations.

                            ********************************

In addition to the material weaknesses and reportable conditions described above, we noted
certain matters involving internal control and its operation that we reported to the management of
the FEC in a separate letter dated November 7, 2006.

This report is intended solely for the information and use of the management of the FEC, the
FEC Office of Inspector General, GAO, OMB, and Congress, and is not intended to be and
should not be used by anyone other than these specified parties.



a1
Calverton, Maryland
November 7, 2006




                                          Page 23 of 30
                                APPENDIX A
                      FEDERAL ELECTION COMMISSION
           STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                              September 30, 2006


  Recommendation No.        Condition/Audit Area            Recommendation                  Current Status
Material Weaknesses
I. Cost Accounting System and Processes
           1              Cost Allocation               Establish formal and         Open
                          Methodology                   comprehensive cost
                                                        allocation methodology
                                                        and related policy and
                                                        procedures.
           2                Cost Allocation             Cross-train employees to     Closed
                            Methodology                 minimize the risks of
                                                        major interruptions in
                                                        normal business
                                                        operations.
           3                Cost Allocation             Establish a review process   Open
                            Methodology                 wherein a person, other
                                                        than the preparer, reviews
                                                        the work performed to
                                                        ensure accuracy and
                                                        propriety.
           4                Cost Allocation             Maintain audit trials to     Open.
                            Methodology                 support the allocation
                                                        methodology and amounts.
           5                Managerial Cost             Evaluate the functional      Closed
                            Accounting                  requirements for the new
                                                        cost accounting system to
                                                        ensure that the minimum
                                                        level of cost accounting
                                                        required in SFFAS No. 4
                                                        is attained.
II. Administrative Fines, Civil Penalties and Miscellaneous Receipts
           6                Administrative Fines,       Establish and implement      Open. Now a reportable
                            Civil Penalties and Misc.   policy and procedures        condition.
                            Receipts                    ensuring communication
                                                        and coordination between
                                                        program offices and
                                                        Finance Office on
                                                        activities with financial
                                                        impact. The policy should
                                                        also clearly establish the
                                                        FEC's revenue recognition
                                                        policy. The Finance
                                                        Office should design a
                                                        standard report outlining
                                                        all the necessary
                                                        information to record the
                                                        financial activities. The
                                                        report should be prepared
                                                        and submitted timely at
                                                        least monthly by the
                                                        program offices to the
                                                        Finance Office.



                                               Page 24 of 30
                                 APPENDIX A
                       FEDERAL ELECTION COMMISSION
            STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                               September 30, 2006



  Recommendation No.          Condition/Audit Area          Recommendation                    Current Status
II. Administrative Fines, Civil Penalties and Miscellaneous Receipts
           7                Administrative Fines,       Document the policy and        Partially closed. Although
                            Civil Penalties and Misc.   basis for the allowance for    the FEC had documented
                            Receipts                    uncollectible accounts.        the policy, the
                                                                                       documentation for the
                                                                                       basis for the allowance for
                                                                                       uncollectible accounts was
                                                                                       not complete. The FEC
                                                                                       uses other methodologies
                                                                                       that were not documented.
III. General Property and Equipment
           8               Property, Plant and           Reconcile the total of the    Open
                           Equipment                     individual property items
                                                         in the property system to
                                                         the bulk purchase total
                                                         recorded in the books to
                                                         ensure completeness of the
                                                         property system records.
            9               Property, Plant and          Document physical             Open
                            Equipment                    inventory procedures,
                                                         results, and reconciliation
                                                         and maintain the
                                                         documentation for audit
                                                         trail purposes.
           10               Property, Plant and          Revise the software           Closed
                            Equipment                    capitalization policy to
                                                         comply with SFFAS No.
                                                         10.
           11               Property, Plant and          Enforce compliance and        Open – Now a reportable
                            Equipment                    consistent implementation     condition reported under
                                                         of policies and procedures    Controls Over
                                                         related to completing         Procurement and
                                                         receiving reports and the     Disbursement
                                                         review and approval of        Transactions.
                                                         obligating memos or
                                                         documents.
           12               Property, Plant and          Establish a standard          Open
                            Equipment                    process and policy where
                                                         program offices are
                                                         required to notify the
                                                         Finance Office of any
                                                         property acquisition or
                                                         disposition with
                                                         accounting impact to
                                                         ensure proper and timely
                                                         recording of the
                                                         transaction.




                                                  Page 25 of 30
                               APPENDIX A
                     FEDERAL ELECTION COMMISSION
          STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                             September 30, 2006



  Recommendation No.        Condition/Audit Area        Recommendation                 Current Status
IV. Information Technology
           13             Entity-Wide Security      Implement a framework of       Open. Now a reportable
                          Program                   policies and standards to      condition.
                                                    mitigate risks associated
                                                    with the information
                                                    resources management.
          14              Entity-Wide Security      Complete the                   Open. Now a reportable
                          Program                   documentation, approval,       condition.
                                                    and implementation of an
                                                    entity-wide security
                                                    program plan.
          15              Entity-Wide Security      Develop and implement          Open. Now a reportable
                          Program                   security plans for all major   condition.
                                                    applications and MCGSS
                                                    as part of a risk mitigation
                                                    strategy.
          16              Entity-Wide Security      Ensure that Resource           Open. Now a reportable
                          Program                   Classifications in the         condition.
                                                    FEC's security plans
                                                    accurately reflect the risk
                                                    and vulnerability of the
                                                    FEC systems.
          17              Entity-Wide Security      Complete the                   Open. Now a reportable
                          Program                   implementation of the          condition.
                                                    program for the
                                                    continuous monitoring and
                                                    evaluation of the computer
                                                    security policy and control
                                                    effectiveness.
          18              Entity-Wide Security      Conduct risk assessments       Open. Now a reportable
                          Program                   at least every three years     condition.
                                                    as part of an overall
                                                    strategy to mitigate risks
                                                    associated with its
                                                    information technology
                                                    environment.
          19              Entity-Wide Security      Certify that the major         Open. Now a reportable
                          Program                   applications and MCGSS         condition.
                                                    are operating according to
                                                    the FEC's security
                                                    requirements.




                                             Page 26 of 30
                             APPENDIX A
                   FEDERAL ELECTION COMMISSION
        STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                           September 30, 2006



Recommendation No.     Condition/Audit Area            Recommendation                Current Status
       20            Entity-Wide Security         Strengthen the FEC's          Open. Now a reportable
                     Program                      program to document           condition.
                                                  corrective actions and
                                                  verify that weaknesses
                                                  identified have been
                                                  addressed. Ensure and
                                                  document that
                                                  recommendations from the
                                                  most recent network
                                                  security review have been
                                                  implemented.
        21           Controls to Protect          Create a new GL system        Closed
                     Information                  application role to give
                                                  employees with necessary
                                                  and appropriate access
                                                  rights to fulfill their job
                                                  responsibility.
        22           Controls to Protect          Monitor and record visitor    Closed
                     Information                  access to the data center.
        23           Controls to Protect          Use access request forms      Open. Now a reportable
                     Information                  to document user access       condition.
                                                  rights and periodically
                                                  review the access for
                                                  appropriateness.
        24           Controls to Protect          Develop mitigating            Open. Now a reportable
                     Information                  controls to ensure that GL    condition.
                                                  system passwords are in
                                                  agreement with the FEC
                                                  policy.
        25           Controls to Protect          Automatically log network     Closed
                     Information                  activity as required by the
                                                  Audit Events Standards.
        26           Controls to Protect          Institute a process to        Open. Now a reportable
                     Information                  manually review logs of       condition.
                                                  users using budgetary
                                                  overrides where the
                                                  reviewer is an individual
                                                  who does not have access
                                                  to utilize the overrides.
        27           Controls to Protect          Periodically review the       Closed
                     Information                  firewall rule set for
                                                  appropriateness.
        28           Controls to Protect          Periodically review LAN       Open. Now a reportable
                     Information                  user accounts and disable     condition.
                                                  unnecessary user accounts.




                                           Page 27 of 30
                             APPENDIX A
                   FEDERAL ELECTION COMMISSION
        STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                           September 30, 2006



Recommendation No.    Condition/Audit Area          Recommendation                  Current Status
       29            Contingency Plan          Perform a Business Impact       Open. Now a reportable
                                               Analysis to formally            condition.
                                               identify and prioritize all
                                               critical data and operations
                                               on the FEC's networks and
                                               the resources needed to
                                               recover them if there is a
                                               major interruption or
                                               disaster. Ensure that
                                               emergency processing
                                               priorities are established to
                                               assist in managing disaster
                                               situations more effectively
                                               for the network and
                                               include business owners in
                                               the discussion to
                                               determine how much
                                               backup data is needed on-
                                               hand to minimize the
                                               impact of a disaster.
        30           Contingency Plan          Establish alternative           Open. Now a reportable
                                               processing site for the         condition.
                                               FEC's operations in the
                                               event of a disaster and
                                               ensure that an operational
                                               mechanism exists to
                                               update the disclosure
                                               database in the event that
                                               the FEC database is
                                               unavailable to replicate the
                                               disclosure database
                                               resident at the off-site
                                               location.
        31           Contingency Plan          Develop a Continuity of         Open. Now a reportable
                                               Operations Plan (COOP)          condition.
                                               to support the continuation
                                               of the FEC's core mission
                                               in the event of a disaster
                                               that renders the FEC's
                                               facilities unusable.
        32           Contingency Plan          Develop and document a          Open. Now a reportable
                                               comprehensive                   condition.
                                               contingency of operations
                                               plan of the FEC's data
                                               centers, networks, and
                                               telecommunication
                                               facilities.




                                        Page 28 of 30
                                APPENDIX A
                      FEDERAL ELECTION COMMISSION
           STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                              September 30, 2006



 Recommendation No.        Condition/Audit Area            Recommendation                 Current Status
        33               Software Development          Fully implement the           Closed
                         and Change Control            System Development Life
                                                       Cycle Methodology.
Reportable Conditions
V. Financial Reporting
           34            General Ledger System         Ensure that corrections       Closed
                         Setup and Posting Model       made to the posting logic
                         Definition                    comply with the USSGL
                                                       and that the USSGL
                                                       accounts and posting logic
                                                       are updated as changes to
                                                       USSGL are issued.
          35             Continuing Resolution         Comply with the               Closed
                         Accounting                    continuing resolution
                                                       accounting scenario
                                                       prescribed by the US
                                                       Treasury in accordance
                                                       with memorandum issued
                                                       by OMB.
          36             Integrated Financial          Continue to assess the        Open
                         Management                    degree of integration
                                                       necessary to have a single,
                                                       unified financial system by
                                                       evaluating the functional
                                                       requirements and the costs
                                                       and benefits of integrating
                                                       the financial reporting,
                                                       property and equipment,
                                                       receivable and the cost
                                                       systems with the GL
                                                       system.
VI. Payroll
           37            Payroll                       Implement procedures to       Closed
                                                       ensure that leave
                                                       adjustments are
                                                       completely processed and
                                                       transmitted to the service
                                                       provider.
          38             Payroll                       Maintain in the personnel     Closed
                                                       files all payroll deduction
                                                       authorization forms
                                                       initiated through the FEC,
                                                       i.e. not done directly by
                                                       the employee with the
                                                       service provider.




                                                Page 29 of 30
                             APPENDIX A
                   FEDERAL ELECTION COMMISSION
        STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                           September 30, 2006



Recommendation No.    Condition/Audit Area        Recommendation                 Current Status
       39            Payroll                 Ensure that timekeepers:       Closed
                                             perform the bi-weekly
                                             reconciliation between
                                             leave balances reported in
                                             its records and the service
                                             provider's records; and
                                             submit the bi-weekly leave
                                             balance certification to the
                                             Finance Office timely.
        40           Payroll                 Implement procedures for       Closed
                                             ensuring all payroll and
                                             personnel documents are
                                             properly completed and
                                             authorized before payroll
                                             data is transmitted to the
                                             payroll service provider
                                             for processing.
        41           Payroll                 Consider automating            Closed. Now in
                                             payroll processing to          Management Letter.
                                             decrease the risk of error.




                                     Page 30 of 30
